No. ______
In the

Supreme Court of the United States
__________________
TROY BEEMER,
Petitioner,
v.
UNIVERSITY OF SOUTHERN CALIFORNIA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Eric M. Schiffer
Counsel of Record
SCHIFFER & BUUS, APC
959 South Coast Drive
Suite 385
Costa Mesa, CA 92626
(949) 825-6140
eschiffer@schifferbuus.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
When does a modification or alteration to an
educational program’s curriculum become a substantial
modification and a fundamental alteration for purposes
of determining whether that student is “otherwise
qualified” for the educational program for purposes of
Section 504 of the Rehabilitation Act.

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT
Petitioner, Troy Beemer, was the appellant in the
court below. Respondent, University of California, was
the appellee in the court below.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
PETITION FOR A WRIT OF CERTIORARI . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION AT ISSUE . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Beemer Was Qualified for Admission to
USC’s Certified Nurse Anesthetist Program
and Performed Well. . . . . . . . . . . . . . . . . . . . . 4
B. Beemer Suffered a Disability During the
CRNA Program Due to Injuries Arising from
an Automobile Accident and Requested
Accommodation . . . . . . . . . . . . . . . . . . . . . . . . 5
C. Beemer Was Constructively Dismissed from
the CRNA Program as USC Claimed He Was
Not Otherwise Qualified to Continue. . . . . . . 7

iv
REASON FOR GRANTING THE PETITION . . . . . 8
THIS PETITION SHOULD BE GRANTED
BECAUSE THE LOWER COURTS HAVE
INCONSISTENTLY APPLIED THE
“OTHERWISE QUALIFIED” STANDARD AND
OFFERED UNFETTERED ACADEMIC
DEFERENCE WHEN ADJUDICATING
SECTION 504 CASES IN THE ACADEMIC
SETTING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
APPENDIX
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(March 6, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Civil Minutes in the United States
District Court Central District of
California
(September 18, 2017) . . . . . . . . . . App. 5
Appendix C Civil Minutes in the United States
District Court Central District of
California
(July 24, 2017) . . . . . . . . . . . . . . App. 15
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Ninth Circuit
(April 1, 2019) . . . . . . . . . . . . . . . App. 49

v
TABLE OF AUTHORITIES
CASES
Lue v. Moore,
43 F.3d 1203 (8th Cir. 1994). . . . . . . . . . . . . . . . 11
Mantolete v. Bolger,
767 F.2d 1416 (9th Cir. 1985). . . . . . . . . . . . . . . . 8
Maples v. University of Texas Medical Branch at
Galveston,
524 Fed. Appx. 93 (5th Cir. 2013) . . . . . . . . . . . 11
McCulley v. University of Kansas School of
Medicine,
591 Fed. Appx. 648 (10th Cir. 2014) . . . . . . . . . 11
Pushkin v. Regents of Univ. of Colo.,
658 F.2d 1372 (10th Cir. 1981). . . . . . . . . . . . . . . 8
Regents of Univ. of Mich. v. Ewing,
474 U.S. 214 (1985). . . . . . . . . . . . . . . . . . . . . . . . 8
Sch. Bd. of Nassau Cnty. v. Arline,
480 U.S. 273 (1987). . . . . . . . . . . . . . . . . . . . . . . . 8
Shaikh v. Lincoln Memorial University,
608 Fed. Appx. 349 (6th Cir. 2015) . . . . . . . . . . 11
Southeastern Community College v. Davis,
442 U.S. 397 (1979). . . . . . . . . . . . . . . . . . . . 2, 8, 9
Wong v. University of California,
192 F.3d 807 (9th Cir. 1999). . . . . . . . . . . . . . 9, 10
Wynne v. Tufts University School of Medicine,
932 F.2d 19 (1st Cir. 1991) . . . . . . . . . . . . . . . . . 10

vi
Zukle v. Regents of the University of California,
166 F.3d 1041 (9th Cir. 1999). . . . . . . . . . . . . . . 10
STATUTES AND REGULATIONS
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 794(a) (2016) . . . . . . . . . . . . . . . . . . . . . . 2
29 U.S.C. § 794(b) (2016) . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12181(7)(j) (1990) . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12182(a) (1990) . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12182(b)(2)(A)(ii). . . . . . . . . . . . . . . . . . . 2
34 C.F.R. § 104.44 . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OTHER AUTHORITIES
“Higher Education Accommodations for Disabled
Students,” 147 WELR 391 (West’s Educ. Law
Reporter 2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Rothstein, Laura, “Students, Staff and Faculty with
Disabilities: Current Issues for Colleges and
Universities,” 17 Journal of College and
University Law 471 . . . . . . . . . . . . . . . . . . . . . . . 10

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Troy Beemer respectfully petitions for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit in this
case.
OPINIONS BELOW
The district court’s July 24, 2017 and September 18,
2017 orders are reproduced in the accompanying
appendix at pages App. 15 and App. 5, respectively.
The Ninth Circuit’s March 6, 2019 memorandum
affirming the district court’s judgment is reproduced in
the appendix at pages App. 1. The Ninth Circuit’s
April 1, 2019 order denying the petition for rehearing
is reproduced in the appendix at page App. 49.
JURISDICTION
The opinion and judgment for which review is
sought was entered by the Ninth Circuit on March 6,
2019. App. 1. The order denying the petition for
rehearing was entered on April 1, 2019. App. 49.
Petitioner timely invokes this Court’s jurisdiction
under 28 U.S.C. Section 1254(1).
STATUTORY PROVISION AT ISSUE
Section 504 of the Rehabilitation Act provides in
relevant part that “[n]o otherwise qualified individual
with a disability…shall, solely by reason of her or his
disability, be excluded from participation in, be denied
the benefits of, or be subjected to discrimination under
any program or activity receiving Federal financial
assistance,” including any “college, university, or other

2
postsecondary institution” that accepts federal grants.
29 U.S.C. § 794(a), (b) (2016). Similarly, Title III of the
ADA provides that “[n]o individual shall be
discriminated against on the basis of disability in the
full and equal enjoyment of the goods, services,
facilities, privileges, advantages, or accommodations of
any place of public accommodation,” including a
“postgraduate private school, or other place of
education.” 42 U.S.C. §§ 12182(a), 12181(7)(j) (1990).
Prohibited discrimination includes “a failure to make
reasonable modifications in policies, practices, or
procedures” to allow the participation of individuals
with disabilities. 42 U.S.C. § 12182(b)(2)(A)(ii).
STATEMENT OF THE CASE
This Court has historically interpreted the
“otherwise qualified” language from Section 504 as “one
who is able to meet all of a program’s requirements in
spite of his handicap.” Southeastern Community
College v. Davis, 442 U.S. 397, 407 (1979). Indeed,
that interpretation has remained the standard by
which lower courts determine whether an individual is
otherwise qualified, and therefore protected, under
Section 504. Subsequent Section 504 jurisprudence,
however, has been inconsistent as to when a
modification by an educational institution to its
educational program for purposes of a reasonable
accommodation under Section 504 should be deemed a
“substantial” modification, or when an alteration to an
education program in such a situation should be
deemed a “fundamental” alteration. See Davis at 410.
Further complicating the Section 504 landscape are the
regulations from the Department of Education, which

3
require a qualified academic institution to make “such
modifications to its academic requirements as are
necessary to ensure that such requirements do not
discriminate. . . on the basis of handicap, against a
qualified handicapped applicant or student. . .
[including] changes in the length of time permitted for
the completion of degree requirements, substitution of
specific courses required for the completion of degree
requirements, and adaption of the manner in which
specific courses are conducted.” See 34 C.F.R. § 104.44.
Here, the Ninth Court of Appeals found that Troy
Beemer (“Beemer”), an admitted nursing anesthetist
student at the University of Southern California’s
(“USC”) graduate program, was not otherwise qualified
to remain in the program following an automobile
injury which rendered him disabled while he was
enrolled. This determination affirmed the lower court’s
ruling notwithstanding evidence presented of his
qualifications for the nurse anesthetist program,
including successful completion of an RN program and
certification as a registered nurse before entering the
program, a previously obtained Master’s degree in
Global Medicine from USC, and several positive
evaluations during his clinical rotations in the nursing
anesthetist program, which included ratings from
“exemplary” to “meets semester objectives.”
Petitioner respectfully submits that this Court’s
review is necessary to settle the inconsistent
applications of the “otherwise qualified” standard
under Section 504 in the academic setting, as well as
the trend of the lower courts offering unfettered
academic deference to those institutions, thereby

4
providing guidance to the lower courts on this issue of
national importance.
A. Beemer Was Qualified for Admission to
USC’s Certified Nurse Anesthetist Program
and Performed Well
Commencing in August 2011, Beemer sought to
become a certified registered nurse anesthetist
(“CRNA”) by enrolling in USC’s CRNA program. Prior
to entering USC’s CRNA program, Beemer successfully
completed an RN program and was a certified
registered nurse. Beemer had also previously obtained
a Master’s degree in Global Medicine from USC and
was therefore appropriately admitted to USC’s
program and otherwise qualified to be a CRNA by
completing USC’s program.
According to the director of USC’s CRNA program,
to become a CRNA, a registered nurse must complete
an educational program accredited by the Council on
Accreditation of Nurse Anesthesia Programs and pass
a certifying examination administered by the National
Board for Certification and Recertification of Nurse
Anesthetists. The Council on Accreditation requires
that any accredited program be at least 24 months long
or the part-time equivalent of a 24-month program.
There is, however, no maximum program time set forth
in the Handbook. The Council on Accreditation also
requires that a CRNA program curriculum “prepare[ ]
the student for the full scope of current practice in a
variety of work settings and require[ ] a minimum of
550 clinical cases,” including a specific number of cases
in various categories. Likewise, there is no maximum
time set forth as to when these clinical cases must be

5
completed, and no rules as to where the cases must be
worked. Several of USC’s affiliate sites permit
students to complete clinical rotations in specific
patient-contexts at different hospital locations.
The CRNA Student Handbook Addendum also
allows for “deferral of graduation” if there are
“extenuating circumstances.” These circumstances can
include “leave of absence.” Moreover, the deferral
provision likewise notes that “the total time in
residence must be a minimum of twenty-four months.”
Again, there is no maximum time set forth. Finally, if
it is deemed that graduation is to be deferred, “it will
be discussed with the student nurse anesthetist and a
new plan of study will be developed.” Deferral of
graduation is “not a usual policy.” There must be a
“good reason” and it must be approved. Beemer
received several positive evaluations during his clinical
rotations, which included ratings from “exemplary” to
“meets semester objectives.”
B. Beemer Suffered a Disability During the
CRNA Program Due to Injuries Arising
from an Automobile Accident and
Requested Accommodation
On April 6, 2012, Beemer was in a significant car
accident that resulted in neck and back injuries, and
which required subsequent medical treatment and
therapy. Despite his injuries and ongoing therapies,
Mr. Beemer attempted to continue with the classroom
portion of the program, but ultimately needed to take
an incomplete in at least one course. He was also
granted a leave of absence so he could focus on his
therapy and rehabilitation.

6
In the summer of 2012, Beemer informed USC that
he could not continue clinical training because of his
automobile accident and ongoing treatment. As a
result, he took an incomplete. For the fall 2012
semester, Beemer again informed USC that he could
not return to clinical training because of his ongoing
care and back injuries. Beemer provided a doctor’s
note indicating that he was “unable to work in a
clinical setting secondary to his ongoing care.” On
October 2, 2012, USC inquired as to whether Beemer
anticipated returning to clinical training in January
2013. Beemer responded that he expected to return to
clinical training in spring semester 2013 and signed a
contract of study.
Thereafter, USC claimed that Beemer was nonresponsive to emails and failed to work cooperatively
on a group project. Beemer denied that he failed to
show up for a group project. USC nonetheless
threatened to dismiss Beemer from the program and
met with him in order to request that Beemer prepare
a written plan for his proposed return to treating
patients. Beemer submitted a plan to return, which
USC dismissed, notwithstanding its acknowledgement
of Beemer’s disabilities, stating that “this plan is
unacceptable and cannot be met.” USC never offered
any alternative options for Beemer; to the contrary, it
warned Beemer that if he failed to meet the unmodified
requirements of the program, he would “be dismissed
from the program.”

7
On December 10, 2012, Beemer met with USC and
stated that he believed he could not return to clinical
training as scheduled for January 2013. As a result,
USC granted a medical leave of absence to Beemer
effective January 2013. In March 2013, USC’s Director
of Disability Services and Programs asked the CRNA
director whether it would be possible for Beemer to
complete his clinical training at only three sites:
LAC–USC, CHLA, and Keck Hospital, to which the
director concluded simply that it was “not possible.”
C. Beemer Was Constructively Dismissed from
the CRNA Program as USC Claimed He
Was Not Otherwise Qualified to Continue
Beemer did not return to the program because USC
was unwilling to accommodate his disabilities. USC
claimed, however, that it “did not remove” Beemer from
the program. On March 26, 2014, Beemer had his
attorney send a letter to USC demanding that Beemer
be accommodated, or otherwise made whole for his
losses. USC failed to do so, which led to Beemer filing
suit against USC for, among other things, violation of
Section 504.
On May 13, 2015, Beemer filed his amended
complaint against USC claiming disability
discrimination in violation of Section 504 of the
Rehabilitation Act, and related claims. The district
court thereafter granted USC’s motion for summary
judgment and entered judgment against Beemer. The
Ninth Circuit affirmed the judgment and denied
Beemer’s petition for panel rehearing.

8
REASON FOR GRANTING THE PETITION
THIS PETITION SHOULD BE GRANTED
BECAUSE THE LOWER COURTS HAVE
INCONSISTENTLY APPLIED THE
“OTHERWISE QUALIFIED” STANDARD
AND OFFERED UNFETTERED ACADEMIC
DEFERENCE WHEN ADJUDICATING
SECTION 504 CASES IN THE ACADEMIC
SETTING
This Court has defined an “otherwise qualified”
person for purposes of a Section 504 claim as one who
can meet all of a position’s requirements in spite of her
disability based upon an individualized determination.
Sch. Bd. of Nassau Cnty. v. Arline, 480 U.S. 273, 287,
fn 17 (1987); Mantolete v. Bolger, 767 F.2d 1416, 1423
(9th Cir. 1985). Analyzing the “otherwise qualified”
standard in the academic setting, this Court has held
that institutions cannot merely look to “accepted
academic norms,” in exploring reasonable
accommodations—because reasonable alternatives may
often “involve new approaches or devices quite beyond
‘accepted academic norms.” Regents of Univ. of Mich. v.
Ewing, 474 U.S. 214, 225 (1985). See also Pushkin v.
Regents of Univ. of Colo., 658 F.2d 1372, 1383 (10th
Cir. 1981) (the inquiry has to be on whether the
University has, in fact, discriminated on the basis of
handicap; the mere fact that the University acted in a
rational manner is no defense to an act of
discrimination).
Indeed, this Court in Davis
prophetically declared that “we do not suggest that the
line between a lawful refusal to extend affirmative
action and illegal discrimination against handicapped

9
persons always will be clear. It is possible to envision
situations where an insistence on continuing past
requirements and practices might arbitrarily deprive
genuinely qualified handicapped persons of the
opportunity to participate in a covered program. . .
Thus, situations may arise where a refusal to modify
an existing program might become unreasonable and
discriminatory.” Id. at 412-413. See also “Higher
Education Accommodations for Disabled Students,” 147
WELR 391 (West’s Educ. Law Reporter 2000)
(accommodations will vary from “institution to
institution and within given institutions from semester
to semester”).
Indeed, the obfuscation of the “line” between a
lawful refusal and illegal discrimination has become
readily apparent. While “Section 504 imposes no
requirement upon an educational institution to lower
or to effect substantial modifications of standards to
accommodate a handicapped person” (Davis at 414),
the lower courts’ application of this standard has been
inconsistent, to say the least.
For example, in Wong v. University of California, 192
F.3d 807 (9th Cir. 1999), the Ninth Circuit extensively
analyzed the extent of deference allowed to academic
institutions when evaluating disability discrimination
under Section 504. In Wong, a medical student failed
several clinical courses and was eventually diagnosed
with a learning disability. Id. at 813. A disability
counselor recommended several accommodations,
including giving extra time to synthesize and absorb
data. After being allowed this accommodation, Wong
passed the two clinical rotations receiving positive

10
remarks from his instructors. Wong contacted the
Dean’s office to request another eight weeks off to read
for his next clerkship; however, this request was denied.
Id. at 814. On review, the Ninth Circuit acknowledged
that an educational institution's academic decisions are
entitled to deference; however, held that deference is not
absolute, and would only defer to the institution's
academic decisions after it determined that the school
fulfilled its obligation. Id. at 817. See Wynne v. Tufts
University School of Medicine, 932 F.2d 19 (1st Cir. 1991)
(in refusing to provide multiple choice test in another
format, the university must demonstrate that
alternative means, their feasibility cost, and effect were
considered). See also Rothstein, Laura, “Students, Staff
and Faculty with Disabilities: Current Issues for
Colleges and Universities,” 17 Journal of College and
University Law 471, 476 (“generally, one should ask
whether an accommodation can be provided that will not
fundamentally alter the nature of the program, that will
not result in a safety risk to the individual or others, and
that will not impose an undue administrative or
financial burden on the institution”). Thus, while
deference to academic decisions is preferred, unfettered
deference should not be the standard.
Unfettered deference has, however, become the new
norm. For instance, in Zukle v. Regents of the
University of California, 166 F.3d 1041, 1047-1048 (9th
Cir. 1999), the Ninth Circuit admonished that
reasonable judicial deference should be extended to
academic decisions on disabilities issues in higher
education and affirmed the dismissal of a disabled
student from a medical school program because that
student did not make satisfactory progress even with

11
accommodations. See also McCulley v. University of
Kansas School of Medicine, 591 Fed. Appx. 648, 650
(10th Cir. 2014) (affirming summary judgment for
medical school in case by individual with spinal
muscular atrophy because accommodation of a
surrogate to assist during clinical rotations was
deemed to be a fundamental change); Lue v. Moore, 43
F.3d 1203, 1205 (8th Cir. 1994) (holding that Section
504 does not require invention of new programs
designed for persons with disability); Shaikh v. Lincoln
Memorial University, 608 Fed. Appx. 349, 353 (6th Cir.
2015) (affirming a judgment dismissing a student from
medical school after the student requested deceleration
of a program after dismissal occurred); Maples v.
University of Texas Medical Branch at Galveston, 524
Fed. Appx. 93, 94-95 (5th Cir. 2013) (affirming a
judgment dismissing student with depression and
ADHD from medical school because student did not
meet standards of the program and giving a second
chance was not a reasonable accommodation). As all of
these academic-based cases demonstrate, the
pendulum of judicial deference in Section 504 cases
seems to have tipped drastically in favor of unfettered
academic deference to educational institutions in the
lower courts.
Here, Beemer fared no differently notwithstanding
his undisputed qualifications for, and success in, USC’s
CRNA program. Indeed, as the record below reveals,
any alleged issues with Beemer’s performance in the
CRNA program were directly related to the physical
injuries he suffered in his automobile accident (i.e.
being unable to physically go to certain hospitals, and
needing additional time to prepare for cases). In fact,

12
Beemer had a history of performing well in the CRNA
program. He also previously earned a Master’s degree
from USC in Global Medicine and was a certified
registered nurse before even entering the program.
There was no evidence proffered that Beemer could not
perform the essential functions of the program with or
without accommodation. Unlike many of the cases
cited above, Beemer was involved in an automobile
accident which affected his abilities; he did not have a
cognitive learning disability or some other malady that
made his very participation in the CRNA program
untenable. He should therefore have been deemed
“otherwise qualified” for purposes of the lower courts’
analysis of his Section 504 claim.
CONCLUSION
Petitioner respectfully requests that this court
grant this petition and offer meaningful guidelines of
the “otherwise qualified” standard under a Section 504
claim; one which tempers the unfettered academic
deference that is endemic in the lower courts.
Respectfully submitted
Eric M. Schiffer
Counsel of Record
SCHIFFER & BUUS, APC
959 South Coast Drive, Suite 385
Costa Mesa, CA 92626
(949) 825-6140
eschiffer@schifferbuus.com
Counsel for Petitioner

